<html>
<title> - A REVIEW OF THE FAA'S CONTRACT TOWER PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                         A REVIEW OF THE FAA'S
                         CONTRACT TOWER PROGRAM

=======================================================================

                                (112-93)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-148 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

                        Subcommittee on Aviation

                  THOMAS E. PETRI, Wisconsin, Chairman
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       RUSS CARNAHAN, Missouri
FRANK A. LoBIONDO, New Jersey        DANIEL LIPINSKI, Illinois
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JEAN SCHMIDT, Ohio                   BOB FILNER, California
FRANK C. GUINTA, New Hampshire       EDDIE BERNICE JOHNSON, Texas
RANDY HULTGREN, Illinois             LEONARD L. BOSWELL, Iowa
CHIP CRAVAACK, Minnesota, Vice       TIM HOLDEN, Pennsylvania
    Chair                            MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         ELEANOR HOLMES NORTON, District of 
STEVE SOUTHERLAND II, Florida            Columbia
JAMES LANKFORD, Oklahoma             NICK J. RAHALL II, West Virginia
JOHN L. MICA, Florida (Ex Officio)     (Ex Officio)
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Hon. Calvin L. Scovel III, Inspector General, United States 
  Department of Transportation...................................     3
Hon. David Grizzle, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration, accompanied by 
  Hon. Julie Oettinger, Assistant Administrator for Policy, 
  International Affairs and Environment, Federal Aviation 
  Administration.................................................     3

                                Panel 2

Walter B. Strong, Jr., A.A.E., Chair, Policy Board, United States 
  Contract Tower Association, an affiliated organization of the 
  American Association of Airport Executives.....................    20
Patricia Gilbert, Executive Vice President, National Air Traffic 
  Controllers Association........................................    20
Melissa K. Rudinger, Senior Vice President of Government Affairs, 
  Aircraft Owners and Pilots Association.........................    20

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Jerry F. Costello, of Illinois..............................    32
Hon. Nick J. Rahall II, of West Virginia.........................    35

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Calvin L. Scovel III........................................    37
Hon. David Grizzle and Hon. Julie Oettinger, joint statement.....    51
Walter B. Strong, Jr., A.A.E.....................................    56
Patricia Gilbert.................................................    68
Melissa K. Rudinger..............................................    76

                       SUBMISSION FOR THE RECORD

Walter B. Strong, Jr., A.A.E., Chair, Policy Board, United States 
  Contract Tower Association, an affiliated organization of the 
  American Association of Airport Executives, letter providing 
  additional information to his hearing remarks, sent to Hon. 
  Thomas E. Petri, Chairman, Subcommittee on Aviation, July 30, 
  2012...........................................................    83


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
              A REVIEW OF THE FAA'S CONTRACT TOWER PROGRAM

                              ----------                              


                        WEDNESDAY, JULY 18, 2012

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The Subcommittee on Aviation session will come 
to order. Today we will hear testimony on the Federal Aviation 
Administration's Contract Tower Program. And I would like to 
welcome the witnesses, and we all look forward to your 
testimony. Thank you for the effort that you have made to 
prepare that.
    The Contract Tower Program has been in existence for some 
30 years. This program allows Federal Government to contract 
with private entities to provide air traffic safety services at 
low-activity airports. Currently, 250 airports in over 45 
States participate in the Contract Tower Program. Contract 
Towers handle approximately 28 percent of all air traffic 
control tower aircraft operations in the U.S., but account for 
just 14 percent of FAA's overall tower operation's budget. The 
safety and efficiency of the Contract Tower Program has been 
validated numerous times by the inspector general, the FAA, and 
the National Transportation Safety Board.
    In 2003, the inspector general conducted a review of the 
cost and safety record of the Contract Tower Program, and found 
that the program was just as safe as and less costly than 
comparable FAA-staffed towers. More recently, the inspector 
general has updated this audit. And again, the inspector 
general found little difference in the safety or quality of 
services provided by similar FAA and contract towers.
    The inspector general determined that contract towers had a 
lower number and rate of reported safety instances than similar 
FAA towers. The inspector general also found that the contract 
towers provided air traffic services to low-activity airports 
at lower costs than the FAA could otherwise provide.
    The inspector general determined that the average contract 
tower costs roughly $1.5 million less to operate than a 
comparable FAA tower, due largely to lower staffing and salary 
levels. I want to stress that we are talking about towers at 
low-activity airports. Operations per hour of these towers 
range from about 4 operations per hour to about 45 operations 
per hour. But there are also airports with mixed use and other 
operational conditions that make it essential they have a tower 
to ensure safety.
    Contract Tower Program is a key component of our Nation's 
aviation system, and provides vital air traffic services to 
communities, businesses, and travelers. After almost three 
decades, this program remains highly popular with its users. 
Without the program, many communities would not be able to 
afford these critical services. Contract towers are manned by 
highly experienced and highly trained professional controllers, 
99 percent of whom are former military or FAA controllers, and 
average 20 years of experience.
    FAA retains safety oversight of the contract towers, and 
the controllers who staff them. All contract controllers are 
certified by the FAA. Contract facilities are monitored on a 
regular basis by the agency, and staffing plans are approved by 
the FAA. Contract controllers are subject to the same rules, 
medical exam requirements, operational procedures, and training 
as are FAA controllers. Contract Tower Program is cost-
effective, safe, and well-regulated. So I believe today's 
testimony will confirm the importance of the Contract Tower 
Program to the national aerospace system.
    Before we turn to the witnesses for their statements, I 
would ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include extraneous 
material for the record of the hearing.
    [No response.]
    Mr. Petri. And, without objection, so ordered.
    And I now recognize Mr. Costello for any opening remarks he 
would like to make.
    Mr. Costello. Mr. Chairman, thank you. And Mr. Chairman, I 
thank you for calling this hearing today. I have a brief 
opening statement which I will enter into the record, and yield 
my time at this point to the ranking member of the full 
committee, Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Costello. I appreciate that. And 
I also appreciate Chairman Petri for calling the hearing today 
on the Contract Tower Program at the FAA. I look forward to 
hearing from our witnesses about the role of the program for 
airports in many smaller communities that might not otherwise 
have control towers.
    There can be little doubt that a control tower, whether 
operated by the FAA or a contractor, enhances safety for 
pilots. The FAA has implemented a nationwide voluntary safety 
reporting program that actively encourages FAA controllers to 
report errors without fear of punitive action. The program 
shines a spotlight into the dark room of errors that may occur 
in FAA facilities, revealing safety issues that otherwise may 
have remained cloaked in the darkness.
    However, the FAA's safety program does not apply in 
contract towers. Peering into the dark room of errors that may 
occur in contract facilities, we have just a flashlight, the 
same flashlight that has always been used to find out about 
operational errors. Comparatively speaking, we know more about 
errors in FAA facilities because the FAA spotlight is bringing 
them out of the darkness. Without an equally broad view of 
errors in contract facilities, I think it is very difficult to 
draw absolute comparisons about safety.
    I would note that the Department of Transportation's 
inspector general observes that applying the FAA's voluntary 
reporting program to contract towers would ensure that errors 
are thoroughly reported. I understand that the FAA is 
encouraging its contractors to implement safety reporting 
programs, and I look forward to hearing more about these 
efforts.
    The IG has also found that contract towers cost less to 
operate than FAA facilities because, in part, they are staffed 
with fewer controllers. However, the National Air Traffic 
Controllers Association, which actually represents controllers 
at a quarter of all current contract towers, has raised safety 
issues and concerns with lean staffing levels.
    For example, controllers may have to stay on duty for 
longer. They may have to multitask at a greater risk of 
distraction. They may have to work alone with no backup. Past 
accidents and incidents have taught us that there must be 
enough controllers on duty in towers to do the job safely. I am 
not suggesting that contract towers are not as safe as similar 
FAA facilities. Rather, I am saying we lack sufficient 
information to make a strong comparison, and contract towers 
have not adopted the best practices that would allow us to 
fully evaluate and improve safety at these facilities. Contract 
towers should implement the same proactive reporting programs 
that have been implemented at FAA towers, so that we can 
collect the best safety information.
    With that said, Mr. Chairman, I again thank you for these 
hearings, and I look forward to the hearings today.
    I yield back the balance of my time to Mr. Costello.
    Mr. Petri. Thank you. And we now turn to the first panel. 
Again, thank you for being here. And let me just briefly 
introduce the panel.
    It consists of the Honorable Calvin Scovel, who is the 
inspector general of the Department of Transportation, and a 
frequent testifier before this and the general committee; David 
Grizzle, chief operating officer of the Air Traffic 
Organization of the FAA; and the Honorable Julie Oettinger, 
assistant administrator of Policy, International Affairs and 
Environment, of the FAA.
    Again, thank you for being here. General Scovel.

  TESTIMONY OF HON. CALVIN L. SCOVEL III, INSPECTOR GENERAL, 
UNITED STATES DEPARTMENT OF TRANSPORTATION; HON. DAVID GRIZZLE, 
  CHIEF OPERATING OFFICER, AIR TRAFFIC ORGANIZATION, FEDERAL 
 AVIATION ADMINISTRATION, ACCOMPANIED BY HON. JULIE OETTINGER, 
 ASSISTANT ADMINISTRATOR FOR POLICY, INTERNATIONAL AFFAIRS AND 
          ENVIRONMENT, FEDERAL AVIATION ADMINISTRATION

    Mr. Scovel. Chairman Petri, Ranking Member Costello, 
members of the subcommittee, thank you for inviting me to 
testify on FAA's Contract Tower Program, which has been in 
place for 30 years, and now spans 250 towers nationwide. The 
program has provided a valuable service to smaller cities and 
airports that otherwise would not have air traffic control 
services, and has increased the level of safety for pilots and 
those communities.
    Our prior reviews of the program have found that safety at 
contract towers and similar FAA towers was comparable, and that 
contract towers provided services at lower costs than the 
agency could otherwise provide. My testimony today is based on 
our current review of the program, requested by the House 
Committee on Appropriations, and will focus on the safety and 
cost efficiency of contract towers, as well as actions FAA can 
take to improve program oversight.
    Overall, contract towers continue to provide safe air 
traffic services, and are supported strongly by their users. We 
compared safety incidents reported in fiscal year 2010 at 240 
contract towers and 92 comparable FAA towers, and found that 
contract towers reported both a lower number and a lower rate 
of operational errors, operational deviations, and runway 
incursions.
    FAA's periodic evaluations of air traffic facilities' 
compliance with FAA directives also found fewer procedural, 
training, and administrative deficiencies at contract towers. 
Pilots, flight instructors, airport officials, and other 
stakeholders with whom we spoke are satisfied with the quality 
and safety of contract tower services. In several instances, 
pilots describe the services provided by FAA and contract 
towers as seamless.
    Contract towers also continue to provide cost-efficient air 
traffic control services, with the average contract tower 
costing about $1.5 million less to operate annually than a 
comparable FAA tower. The cost difference is primarily due to 
the fact that contract towers have lower staffing levels than 
FAA towers. The 30 contract towers in our sample had an average 
of 6 air traffic personnel per facility, while the sample of 30 
comparable FAA towers had an average of 16 air traffic 
personnel.
    Also, contract tower controller salaries, which are based 
on Department of Labor wage rates, are lower than salaries paid 
to FAA controllers.
    While the Contract Tower Program continues to provide safe, 
cost-efficient air traffic services that are supported by 
users, there are opportunities for FAA to improve its oversight 
and strengthen program controls.
    First, FAA needs to implement a voluntary safety incident 
reporting program at contract towers. Controllers at FAA towers 
currently have the Air Traffic Safety Action Program, ATSAP, a 
voluntary, nonpunitive safety reporting program that encourages 
controllers to report operational errors and other safety 
incidents. Implementing a similar program at contract towers 
will help FAA's efforts to ensure one level of safety.
    Second, FAA needs to review annual labor hours worked, to 
determine if contractors provide the level of service stated in 
the contract. This is important, because we found in the past 
that some contract hours were not staffed according to 
contractor staffing plans. In response, FAA required 
contractors to comply with an approved staffing plan that 
includes the total number of hours controllers will work 
annually.
    However, we found that the effectiveness of this control is 
limited, because FAA only reviews the contractors' monthly 
reports, not the actual annual hours worked by contractors. As 
a result, FAA does not validate whether services paid for have 
been delivered.
    Finally, FAA needs to implement processes to regularly 
evaluate contract towers, as required by the recently enacted 
FAA Modernization and Reform Act. While FAA's new risk-based 
oversight system allows the agency to target high-risk towers, 
lower risk towers, such as contract towers, could go years 
without being evaluated. In our opinion, periodic evaluations 
of contract towers are an important factor to ensure the safe 
and successful performance of this program.
    This concludes my statement. I would be happy to address 
any questions from you, Mr. Chairman, or other members of the 
subcommittee.
    Mr. Petri. Thank you. Mr. Grizzle.
    Mr. Grizzle. Thank you for the opportunity to speak with 
you today about the status of the Federal Aviation 
Administration's Contract Tower Program. At the outset, let me 
introduce my colleague, Julie Oettinger, assistant 
administrator for Policy, International Affairs and 
Environment. Ms. Oettinger's office is responsible for using 
the FAA's cost accounting data to refine the agency's cost-
benefit analysis, and she is happy to answer your questions 
related to that topic.
    Since its inception in 1982, this program has been part of 
how the FAA delivers safe and cost-effective air traffic 
control. There is a general consensus that the program has been 
successful, and it has created measurable efficiencies in the 
system for both commercial and general aviation operators, 
while delivering safety benefits to the traveling public.
    The program has grown significantly over the years. It 
began as a pilot program to contract for air traffic control 
services for five lower activity towers that were closed as a 
result of the Professional Air Traffic Controllers Organization 
strike in 1981. The program grew to 27 towers by 1993. In 1994, 
Congress provided funding for a multiyear program to convert 
additional FAA-operated lower activity towers to contract 
operations. The program was further expanded by including 
towers at airports that never had an FAA-operated tower. Today 
there are 250 contract towers in the program across 49 States 
and territories.
    The NAS is currently going through some significant 
changes. The economic downturn that hit the U.S. in 2008 had a 
profound impact on aviation operations. There has been a 
decline in commercial operations at contract towers of more 
than 13 percent, and a decrease in overall operations at those 
towers by just over 23 percent. Our forecasts do not see 
operational levels returning to those seen prior to the 
economic downturn in the near future. Consequently, we need to 
make sure we are managing a program that delivers the safety 
and efficiency benefits to deal with this changing pattern of 
aviation activity.
    We appreciate that Congress has spoken in consistent 
support of this program. It has authorized a cost share program 
so some communities with an airport that did not meet the 
required cost-benefit ratio to qualify as a fully funded 
contract tower could instead qualify for a contract tower where 
the cost-benefit ratio was used as a determination regarding 
how costs are shared between the FAA and the community.
    Last year, however, Congress included a provision that 
capped the amount any community could be required to pay toward 
the operating costs of a contract tower in the cost-share 
program at 20 percent of the total cost of the tower's 
operation, regardless of the cost-benefit ratio. This will 
certainly impact the cost associated with this program.
    In light of the economic realities, the FAA's ability to 
maximize its resources to benefit the overall needs of the NAS 
is extremely important. While it is generally recognized that 
the Contract Power Program is both cost-efficient and extremely 
safe, the FAA is always investigating ways to operate the 
towers it manages more cost-effectively by reviewing and 
adjusting, as necessary, staffing levels, operating hours, and 
deployment of system enhancements. For example, we welcome 
opportunities to safely incorporate best practices from the 
Contract Power Program into FAA tower operations.
    Let me now turn to how the FAA plans to refine the cost-
benefit analysis that will be applied to the Contract Tower 
Program. We continue to use the same basic model for our 
current cost-benefit work, while updating model inputs 
including traffic changes, revision to the Department of 
Transportation's valuation for avoiding fatalities and 
injuries, and data from the FAA's maturing cost accounting 
system. We are discussing our approach to incorporating this 
new information with the U.S. Contract Tower Association to 
ensure that the FAA is considering all pertinent factors in its 
calculations of individual towers. The FAA is determined not to 
make any final decisions until we have had a full and informed 
discussion with interested parties.
    Finally, we are undertaking a number of efforts to ensure a 
well-grounded, longer term approach. The FAA's Aviation Safety 
organization is currently conducting a study to compare safety 
data between airports with staffed contract towers, whether 
Federal or contract, and airports that are unstaffed. This will 
provide the FAA with important information about future 
investment in air traffic control facilities and risk 
management.
    We also need to make sure that the Contract Power Program 
is well integrated into our NextGen endeavors. How we manage 
air traffic, how we use technologies, and how we organize our 
facilities and infrastructure will all change over time as we 
bring NextGen technologies into the system. We understand that 
taking a static view of equipment and services will not deliver 
the system the traveling public requires in order to adapt to 
dynamic circumstances. As new technologies emerge and are 
integrated into the system, the needs of the NAS, including 
those of contract towers, may change in order to take the best 
advantage of safety and efficiency opportunities.
    The FAA is the guardian of a system that has achieved a 
safety level that is envied around the world. We remain 
committed to the Contract Power Program as an important 
component of how we deliver safety and efficiency in the NAS. 
While fiscal realities must play a role in aviation 
investments, the FAA will not tolerate any degradation in 
safety, and we recognize that Congress and the traveling public 
share that view.
    Thank you for this opportunity to speak before you. I am 
happy to answer any questions you might have at this time.
    Mr. Petri. Thank you. Thank you both. And I think we do 
have a number of questions. I would like to ask a few.
    Mr. Grizzle, you talk about it being a dynamic system. And, 
clearly, with the switch to digital and NextGen-type 
technology, that is going to provide more opportunities for 
dynamism in the system.
    There was a problem a few months ago that made it into the 
national media about periods at FAA towers where people were 
sleeping, and this sort of thing. And I think the solution was 
to man up and maybe put two people in instead of one. Is that a 
cost-effective way of dealing with the problem, or do you have 
a system of monitoring movements at airports and which airports 
could be switched to a virtual tower approach at certain low-
use periods, so that TRACON or something can handle the air 
movements?
    Sometimes staffing levels need to change when the number of 
flights change. And if there are no flights for 6 or 8 hours, 
and yet someone is on the job, you can't really blame them for 
staying up the whole time if there are no scheduled flights in 
that. Could you talk about that as a cost that might be 
addressed?
    Mr. Grizzle. Certainly, sir. First of all, we took each of 
those incidents extremely seriously. Whether there might have 
been a more cost-effective solution was not our first concern. 
Our first concern was to do what we believed was absolutely 
essential for safety. So, we staffed each tower which had a 
level of operations that would have required us to keep it open 
during the midshift with two people. The same change was made 
with Federal contract towers that had a sufficient level of 
operations that we would have kept them open during a midshift 
if they had been federally operated towers.
    We are looking at various NextGen technologies with a 
possibility of changing fundamentally the way we do air traffic 
control in all of our facilities, not just our smaller towers. 
One of the beauties of NextGen technology is it is largely 
geographic-indifferent. And so we have opportunities to do our 
surveillance at locations that we previously wouldn't have been 
able to employ. But we don't have those online yet, but we are 
certainly looking at them for, again, small towers and all of 
our facilities.
    Mr. Petri. Because there are flights into airports where 
there are no towers operating that are handled by TRACON now, 
as I understand it, on a fairly common basis.
    Mr. Grizzle. It is not extremely common, but it does occur, 
yes.
    Mr. Petri. Are you--you were talking about new technology 
and changes and your analysis of it. Is the agency prepared to 
work collaboratively with industry and airport stakeholders as 
you analyze the opportunities and challenges of this new 
technology?
    Mr. Grizzle. Yes, very much so. Not only are we willing to 
work collaboratively, but we really have to. This system is a 
system of collaborative decisionmaking. Whether it is putting 
in new technology, putting in new roots, or initiating new 
procedures, we cannot do them without collaboration with 
industry in the actual development of these innovations. We 
certainly have to have industry's participation in the 
development, and consequently, we will have their participation 
in the utilization of these innovations.
    Mr. Petri. OK, just two more questions. You mentioned in 
your testimony about your new--the cost-benefit analysis. Are 
you going to be applying that to FAA towers as well as contract 
towers, or is that inappropriate? What are your thinking on 
that?
    Mr. Grizzle. We will be applying the same cost-benefit 
analysis to FAA-managed towers. But, we are doing that without 
any expectation that we will then convert any of those towers 
to Federal contract towers. We want to apply the best cost 
information we have to all of the facilities under our 
responsibility.
    Mr. Petri. Finally, Mr. Costello, I and other members of 
the committee have been working with stakeholder advisory 
groups and hopefully people in FAA on sort of bird-dogging and 
encouraging the forward movement on deploying NextGen. And one 
area that we have been hearing about is that a number of 
airports have been training, airlines have been training pilots 
as to new approach procedures and so on, but the manuals just 
have not been approved.
    And this is not directly air traffic control, but your 
controllers are, I am sure, being trained as well. And yet, all 
this money is being used, and it is not being effectively 
utilized if there is a snag in the system. And I am eager to 
ask you if you are willing to help work with the airlines and 
the others who are investing in this new future to actually put 
it into place in as many places as possible. It saves a lot of 
fuel and a lot of cost for everyone concerned.
    Mr. Grizzle. Chairman Petri, you have identified an 
extremely critical issue, and one that we are very focused on 
right now. I think what you are referencing is that we have a 
set of procedures that is called the controllers handbook, 
which very much governs the interplay between controllers and 
airspace users.
    That document is essentially 50 years old. We are in the 
process now, at the urging and with the participation of the 
airlines--and, obviously, with our controllers--of beginning to 
update that document so that it will support the way we 
currently do air traffic control, and especially the way we 
will do it in the future. It has been an impediment, we are 
aware of that, and we are fixing it.
    Mr. Petri. Do you have a timeline on that, or are you 
trying to update at particular airports, or overall, or exactly 
how is that----
    Mr. Grizzle. It has overall applicability to the entire 
system. We are focused on those provisions of the controller 
handbook that have historically produced the most waiver 
requests from the individual facilities which we consequently 
granted; i.e., they are provisions that could stand to be 
changed. We are focusing on those first, and we are intending 
to have all of those changed within 3 years.
    Mr. Petri. Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. To follow up on the 
chairman's comments, we had a meeting just yesterday in the 
chairman's office with some of the stakeholders. And we were 
told that at one particular airport the handbook wasn't even 
available for the controller. I know that staff is--there is a 
meeting that will take place this coming Friday at the staff 
level, and then we intend to follow up with some questions for 
the agency, where Chairman Petri and I will be present to talk 
about those things, and to try and lay out a plan.
    Mr. Grizzle, there is a difference between reporting safety 
incidents at FAA-staffed towers versus the contract towers, 
particularly with the use of the voluntary, nonpunitive 
reporting system that is in place at the FAA. I wonder if you 
might elaborate on the differences between the reporting system 
used at FAA-staffed towers versus the contract towers.
    Mr. Grizzle. Certainly, sir. We currently have a voluntary 
reporting system that goes by the acronym ATSAP which has two 
principal features to it that make it very effective. One is 
that it is voluntary. Therefore, it eliminates some of the 
stigma that would ordinarily be associated with an error. 
Secondly, it provides for a nonpunitive feature, so that when a 
controller reports appropriately under ATSAP, that controller 
does not do so with fear that the disclosure that he or she has 
made will then be used in a punitive fashion. That has resulted 
in an abundant increase in the quality of information that we 
have about incidents, and consequently, about the risks which 
produce those incidents.
    We do not have that system in place now at Federal contract 
towers. We are working with our three contractors, who are, in 
turn, in negotiations with their unions, because the 
implementation of an ATSAP program is a multiparty investment. 
But we expect that all of them will, in fact, implement ATSAP 
in the Federal contract towers, because it is so important that 
we have to have it in all of our facilities that are handling 
traffic.
    Mr. Costello. So, as I understand it, the agency is 
concerned that the incidents at contract towers may not be 
fully reported today, as they are at FAA-staffed towers, 
because of the voluntary, nonpunitive program. So does the 
agency have concerns that incidents that are taking place at 
contract towers may not be fully reported, as they are at FAA-
staffed towers?
    Mr. Grizzle. As I have testified before, we are unable to 
differentiate between an increase in incidents, or a greater 
number of incidents, and an increase in reporting. That applies 
to our own system, and it certainly applies to the disparity in 
Federal contract towers.
    But, as the IG has reported, since we don't have at 
staffed--there may very well be a lower level of reporting in 
the Federal contract towers. And so that is one of the reasons 
that we need to have that data going into our system.
    Mr. Costello. And so the goal is to put one system in place 
for contract towers and for the FAA-staffed towers?
    Mr. Grizzle. That is correct, sir.
    Mr. Costello. And the negotiations with the three 
contractors now, how are they going? Is there a deadline to try 
and implement a system?
    Mr. Grizzle. There is not a deadline. It is my 
understanding that the discussions are going well. The 
principal work to be done is actually between the contractors 
and the bargaining unit for their employees. The principal 
negotiation is not between the FAA and the contractors. But we 
have told the contractors that this is very important, and it 
will become a contract requirement.
    Mr. Costello. Can you go beyond the contractors that it is 
very important, and put it in as a part of the contract that 
you are awarding to a contractor to provide the services?
    Mr. Grizzle. We will come to that, sir.
    Mr. Costello. And how soon will you come to that?
    Mr. Grizzle. I do not have an answer for you.
    Mr. Costello. The contracts that are let to the three 
primary contractors, how often are they let? Is it an open-
ended contract, or do they have specific terms when they 
expire?
    Mr. Grizzle. They have terms, but I do not recall the 
expiration date of the current set of contracts.
    Mr. Costello. And the reason I ask the question is if you 
are going to modify an existing contract, or if you are going 
to put additional requirements in a contract, can you do that 
now, or do you have to wait until it terminates?
    Mr. Grizzle. I would need to review the contract to give 
you a confident answer.
    Mr. Costello. Well, I would ask that you would do that and 
get back to us.
    Mr. Grizzle. We will do that, sir.
    Mr. Costello. Thank you. Mr. Scovel, in your testimony you 
indicate that additional oversight could help ensure accurate 
and comprehensive reporting of safety incidents at contract 
towers. Would you elaborate on that statement?
    Mr. Scovel. Thank you, Mr. Costello. Yes, we believe that 
increased and more comprehensive reporting would shed more 
light on the safety aspects of contract towers. We have noted 
that, while ATSAP was in place for FAA control towers for 
several years now, it was not made part of the current 
contract, which was initiated in 2010 and will expire in 
September 2014, sir. It certainly would have been appropriate 
at that time to build it into the current set of contracts, 
because the Congress and my office have long been supporters of 
voluntary safety disclosure reporting programs, both for air 
carriers and in the air traffic control world.
    I fully concur with Mr. Grizzle when he says that ATSAP 
data should be reviewed, and we trust that the data will 
ultimately provide a strong boost to the visibility that we 
have into the operational error world. Currently we don't have 
that at contract towers.
    I would note also that as we have testified before the 
House and the Senate in the past, not only the advent of ATSAP, 
but also the initiation of automated traffic analysis and 
review programs to catch all those errors automatically have 
been a significant impetus to better reporting and better 
safety analysis. We also don't have that in the tower world, 
either.
    Mr. Costello. And you have recommended to the FAA that they 
incorporate those provisions in the contract?
    Mr. Scovel. It is part of our testimony today. And our 
testimony today, sir, as you know, is based on an ongoing 
review we are doing for the House Appropriations Committee. 
That will be one of our recommendations; ATSAP should be 
included for contract towers.
    Mr. Costello. Has your--has the IG's office recommended 
that in the past? Have you brought this up to the FAA prior to 
them letting the last contract in 2010?
    Mr. Scovel. I don't believe we did. Our most recent review 
prior to the one now underway was finished in 2003. So I doubt 
that we had picked up on ATSAP and had had a chance to evaluate 
the merits of that program.
    Mr. Costello. And the reason that I am directing this line 
of questioning is that, you know, we ought to be on the same 
system here with FAA-staffed towers and contract towers. We 
shouldn't have apples and oranges here when we are reporting 
safety incidents. We ought to have the same system in place. 
And I would encourage you, Mr. Grizzle, to go back, take a look 
at when the contracts expire, if you have the ability in 
existing contracts to modify those contracts, and report back 
to the committee.
    With that, Mr. Chairman, I thank----
    Mr. Grizzle. We will do that, sir.
    Mr. Petri. Thank you. Mr. Lankford.
    Mr. Lankford. Thank you. Mr. Scovel, I want to pick up 
right there on that same line of questioning.
    Is it your perception--because I know you mentioned earlier 
there is a lower error rate in the contract towers--is it your 
perception that it is just a statistical anomaly that the 
reporting is different there, so it is not an apples-to-apples 
comparison? Or is it your thought that there is an actual lower 
error rate in the contract towers?
    Mr. Scovel. We don't know. What we need is better data. 
Obviously, that will drive our conclusions. Page 3 of the 
statement that we submitted to the committee for today's 
hearing has a table in it that notes both the absolute number 
of safety incidents, and the rate per 1 million operations, 
contrasting contract towers with FAA towers. And it appears, 
from the data in that table, sir, that contract towers may be 
safer, to use that term.
    I would not advance that conclusion, based on the data, 
primarily because what we have learned in looking at the 
enroute world and at the TRACON world, is that once ATSAP is in 
place, and once automated traffic analysis and reporting 
programs are in place, too, the number of reported operational 
errors increases. Whether that is simply better reporting or 
more errors being committed, we don't know. FAA does not yet 
have a solid base line on which to make that judgement. But we 
are going to get there. We can't get there right now in the 
tower world, because, at least when it comes to contract 
towers, we don't even have ATSAP in place.
    Mr. Lankford. A million and a half dollars cheaper to do a 
contract tower. Right now we don't know on safety issue. It 
looks like there is a lower error rate. We will have to see if 
that is just a statistical anomaly, based on the reporting side 
of it at this point. Are there other areas that we have talked 
about, or that you have discovered--Mr. Grizzle also mentioned 
this, as well--are things that FAA can learn from the 
functioning of the contract towers? Whether it be staffing, 
functionality, operation, whatever it may be, what can be 
learned in the other direction, as well?
    Mr. Scovel. Safety, we would conclude, is comparable 
between the two types of towers. When it comes to cost, there 
is, as our statement notes, almost a $1.5 million cost 
difference between contract and FAA towers. The primary drivers 
of that are the staffing levels and the pay that contract 
controllers get. The staffing levels are determined for 
contractors by virtue of their staffing plan that they submit 
to the agency for approval and if those staffing plans can be 
structured so as to avoid some of the cost drivers that may 
apply in the FAA world. For instance, the requirement that 
controllers not spend longer than 2 hours on position, the 
requirement that--or the practice that managers and supervisors 
not be used in an FAA tower to control traffic. They can be 
used in a contract tower to control traffic. Benefits for an 
FAA controller may be more generous, in terms of annual and 
medical leave, than they are in the contract world, too. And so 
that permits contract controllers to stay on the job perhaps a 
little bit longer. Those are the kinds of things that permit 
the contract towers to have lower staffing levels.
    Mr. Lankford. Ideas on efficiency. Can they move the other 
direction, or do you think structurally it is not possible for 
them to move the other direction? Can ideas move from contract 
towers to FAA towers to say this is working, they are at a 
correct level, their error rates, all the safety issues--or do 
you think there is a structural issue there to say, really, 
there is no way for ideas to move that direction?
    Mr. Scovel. I do want to say there is a way for good ideas 
to move where properly motivated people are involved. I will 
note that there are factors that must be considered--collective 
bargaining agreements and so forth, different traffic 
densities, FAA's training requirements for their controllers, 
and the requirement for on-the-job training that some of their 
controllers must engage in. All of that drives FAA's staffing 
levels, and we acknowledge the validity of those concerns.
    Mr. Lankford. Right. Inherently there are different types 
of towers, different quantity of takeoffs and landings. I 
understand that.
    Mr. Scovel. Right.
    Mr. Lankford. There are some inherent differences. But if 
there are some areas that we can go the other direction, 
process wise, how would that occur? Who would carry the water 
to say, ``Let's look seriously at this, and try to figure out 
how to do that''?
    Mr. Scovel. Right.
    Mr. Lankford. Is there is a certain office that you would 
know of that would make that evaluation to say, ``This is 
efficient.'' How do we get some of these efficiencies over 
here?
    Mr. Scovel. I would defer to Mr. Grizzle on that. I know 
that within the Air Traffic Organization he has resources whose 
mission it is to make those comparisons and recommendations.
    Mr. Lankford. OK. Mr. Grizzle, my time has expired. Would 
the chairman allow me an additional 30 seconds for Mr. Grizzle 
to respond?
    Mr. Grizzle. It is my responsibility to glean efficiencies 
from whatever source, including Federal contract towers.
    I will say that the opportunity for more efficient air 
traffic management in our larger facilities absolutely dwarfs 
our ability to move Federal contract tower practices into our 
comparably sized facilities. But, we are looking at all of 
them, because there is an opportunity.
    Mr. Lankford. OK, thank you. With that I yield back.
    Mr. Petri. Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. At the expense of 
beating a dead horse, Mr. Scovel, let me ask you. When 
comparing error rates between contract towers and FAA towers, 
you refer to reported--reported, that is the key word--errors. 
Would you agree that there is a difference between the reported 
errors and actual errors that occur, particularly given that 
FAA's reporting program does not apply in contract towers?
    I mean I have one contract tower in the district I 
represent, Lewisburg, West Virginia. With the exception of some 
higher income people flying in to go to the Greenbrier, there 
is not many--not much activity at that airport.
    Mr. Scovel. There may be a difference. We don't know. I do 
have to couch the information that we have presented to the 
committee in terms of an inference that I can make, based on 
the experience of my office in looking at trends in operational 
errors as reported in the enroute and TRACON worlds. When 
automated programs were put in place, and when ATSAP came 
online, operational error numbers increased. And we have 
focused on that. We are trying to determine, as is FAA, whether 
it is an increase in reported numbers, or an increase in errors 
committed? We don't know, because there is not a good baseline.
    With time, we will get to that baseline, and then we will 
be able to determine an answer. In the tower world, sir, we 
don't have that yet, either. ATSAP is fairly new at the FAA 
towers, and it is not even in place at contract towers. So I 
can't say.
    Mr. Rahall. What is the basis for your recommendation in 
your written testimony, where you state that adoption of 
voluntary safety reporting program among contract towers would 
improve FAA safety oversight of those facilities?
    Mr. Scovel. We agree with FAA, and we have reached the 
conclusion independently that the nonpunitive nature of ATSAP, 
as it is in the air carrier safety action program, is a strong 
inducement to better reporting. We would strongly recommend to 
FAA that this be included for contract towers, if not by 
modifying the contract, then certainly when contracts come up 
for renewal in 2014.
    Mr. Rahall. OK. Mr. Grizzle, I know you have been asked 
this question before, but it is in regard to your testimony 
back in April, when you stated that you are confident that the 
reporting of incidents has increased, thanks to the FAA's new 
safety reporting program for air traffic controllers.
    My followup would be what is the FAA doing to ensure that 
contract towers adopt a voluntary reporting requirement or 
program?
    Mr. Grizzle. We are going to utilize the contractual 
opportunities that we have. If we have the ability in our 
current contract to require one, we will do so. Otherwise, when 
we come to a contractual renewal, we will require that our 
contractors effectuate an ATSAP program because, as the 
inspector general has said, it has unquestioned value in terms 
of providing us a greater amount of data about events that 
occur.
    Mr. Rahall. OK, thank you. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Ribble.
    Mr. Ribble. Well, good morning, everybody. Thank you for 
your testimony today. I have got just a couple brief questions.
    But I would like to say one thing. I would like to commend 
you. I would like to commend the U.S. airline industry and the 
National Transportation Safety Board. I get on an airplane 
every single week. And you know what? I never think about 
safety. I just get on the airplane, and I usually work, and I 
land, and I go home, and I turn around a few days later, and do 
it again. And that is a real testament to what has been going 
on in this country and how safe air travel has become.
    With all that said, as I look through Mr. Scovel's 
testimony, I just want to read just the headlines, or the 
titles of the various sections. Contract towers continue to 
provide safe services and are supported by users. Contract 
towers have a lower number of reported safety incidents and 
deficiencies than comparable FAA towers. Users are satisfied 
with the level and quality of services provided by contract 
towers. Contract towers continue to provide cost-efficient 
services. FAA oversight of the Contract Power Program could be 
improved. Accurate incident reporting at contract towers is 
critical to maintaining safety. New oversight system does not 
ensure that contract towers receive regular safety evaluations 
required by Congress. FAA can improve its contractual oversight 
of the program.
    As I look and read those titles and then listen to the 
testimony, it almost seems as if the inspector general is more 
critical of FAA than contract tower operations. Why do you 
suppose that is, Mr. Grizzle?
    Mr. Grizzle. We rely very heavily upon the insights of the 
inspector general. Whenever the inspector general observes 
deficiencies in our operation, we immediately discern how we 
can make improvements that will address the deficiencies that 
he has noted, because that organization has, in every case, 
spent a lot of time looking very carefully at each situation.
    I think that the inspector general makes those comments 
because they entirely conform with what he has observed, and we 
intend to take those observations extremely seriously.
    Mr. Ribble. Well, I appreciate that. I most often fly out 
of Appleton, Wisconsin, which, as you are aware, is a contract 
tower. And I know how important that airport is to the economic 
development of northeast Wisconsin. It is critically important. 
And I just want to make sure that you are going to provide us 
some type of assurance that you are willing to work with the 
industry in a balanced approach to ensure that safety continues 
to happen, economic development continues to happen, and that 
the FAA doesn't unfairly just shift additional cost to the 
operation of that tower onto Appleton and other communities 
like it.
    Mr. Grizzle. We believe that each of our Federal contract 
towers provides an extremely safe operation. We are committed 
to maintaining that, and we are working to develop an ever more 
accurate cost accounting system to accomplish the other purpose 
that you requested of us.
    Mr. Ribble. Well, I want to thank you for that. And again, 
I want to thank you for taking the time to come in here today. 
And I don't want to lose sight of the fact that even though 
there was criticism here, and criticism this morning, that I 
don't recognize how great a job the U.S. air industry, in its 
totality, is actually doing. So, thank you for that work.
    And with that, Mr. Chairman, I yield back.
    Mr. Petri. Thank you. Mr. Hultgren.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you all for 
being here. I just have a few questions, as well. First, to Ms. 
Oettinger. I am wondering. Will the FAA commit today to work 
collaboratively with industry and airport stakeholders to reach 
consensus on any revisions to the benefit cost analysis for 
contract towers?
    Ms. Oettinger. Absolutely. We have committed to doing that, 
and we are, in fact, in the process of doing just that. We most 
recently met with the Contract Tower Association a couple of 
months ago to share with them the latest information that we 
had, and the analysis that we are doing. We are awaiting some 
feedback from them, and we have plans to meet with them again 
later this month.
    Mr. Hultgren. I wonder if I can ask you, and also Mr. 
Grizzle, if you could please talk about any effects that 
sequestration could have on the national air service, and what 
steps the FAA is taking to plan for these cuts. And also on 
that, I just wanted to see if you have begun communicating this 
plan in a coordinated action with our Nation's air traffic 
controllers.
    Mr. Grizzle. Although we have received no specific 
direction as to the impact of a sequestration on the FAA, we 
have done a great deal of internal planning, looking at 
different scenarios and how we would be required to shift our 
priorities in the event that different sequestration scenarios 
came into place.
    We have not begun sharing those with anyone yet, because we 
are not far enough along in designing those priorities. But 
suffice it to say that it would require a significant 
reprioritization of what we currently do.
    Mr. Hultgren. Is it your sense that there will be a big 
impact with sequestration, or is that uncertain right now?
    Mr. Grizzle. It could be. The answer is that we do not 
know, but it could be large.
    Mr. Hultgren. When will you know?
    Mr. Grizzle. We are in communication with various parts of 
the Administration. Our perceptions are developing as we are in 
these communications.
    Mr. Hultgren. Well, you know, I echo what my colleague from 
Wisconsin, Mr. Ribble, said. I am so grateful for the safety 
that we enjoy, and the confidence of getting on an airplane. 
But I think this is very important. And we haven't gotten a 
real sense from the Administration of what is the plan with 
sequestration. We see it impact the Department of Defense. But 
it very well, I think, could impact the safety of our skies.
    And so, we are asking you to reach out as well to the 
Administration to clarify this, of what is the intention here. 
We better get these plans in place now, I believe. Am I wrong? 
Tell me, you know, what your thoughts are. If there is any 
question that this could have an impact, we better know about 
that now and start making those plans, and I think start 
communicating with our air traffic controllers on what those 
plans are.
    Mr. Grizzle. We are committed to maintaining the highest 
level of safety. We will not undertake any change that would 
diminish that.
    Mr. Hultgren. Well, I appreciate that. I just--my fear is 
with sequestration. It is a meat ax approach, basically, of--
that could address and impact many departments. And it is just 
very unclear of what the Administration and the White House's 
plan is to deal with this.
    So, I would just ask for your help together to get some 
clarity here, get communicating for the sake of continuing that 
safety that we enjoy, that we really expect and I think have a 
right to expect to continue.
    So, just as my time is winding down, I just--getting back 
to contract towers, just wonder if each of you could just 
briefly touch on if you feel like if contract towers--is there 
any lack of redundancies resulting in safety issues in contract 
towers, or do they have any inferior equipment or facilities, 
or do you see, in your opinion, that contract towers have 
deficient training programs? What is your sense on those three 
issues? And I would ask each of you to comment quickly.
    Mr. Grizzle. We believe that the staffing, equipping, and 
the condition of the facilities in the contract towers are 
adequate for a very high level of safety, and we constantly 
monitor all of those.
    Mr. Scovel. Sir, we believe staffing and training are 
sufficient. The agency gives close attention to those measures. 
We know that the agency is stressed, at all air traffic 
facilities, when it comes to aging facilities and making sure 
that they are maintained in the best condition possible. 
Contract towers are no exception. The FAA's own facilities 
would also fall into that group.
    Mr. Hultgren. Well, thank you. My time has expired. I do 
appreciate it. I do think is an important issue that we are 
going to have to continue to talk about, and get some real 
answers as far as sequestration and potential impact on safety 
of our skies. We can't--as you have said, we can't allow any 
compromise in this, and we have got to make sure we work 
together to get some real answers of how this is going to 
impact.
    Thank you. I yield back.
    Mr. Petri. Thank you. Mr. Costello, you had a comment.
    Mr. Costello. Mr. Chairman, thank you. I want to follow up 
on my friend from Illinois, his comments about sequestration 
and what may happen to the FAA in this particular case.
    While you may not have a plan in place, you do have a 
dollar figure. You know that when sequestration, if in fact it 
goes forward, you know how much money will be cut out of the 
agency. We had testimony either earlier this year, but I know 
that we had the former administrator, Marion Blakey, who 
testified before this subcommittee about NextGen, and what 
effect sequestration would have on NextGen. In fact, we had a 
meeting, as I referred to, yesterday, with some stakeholders in 
Chairman Petri's office. And the issue of sequestration was 
brought up again on how it would affect NextGen.
    Do you have a dollar figure, that if sequestration is--if, 
in fact, it takes place, how much money the agency would lose 
under sequestration?
    Mr. Grizzle. We have looked at various scenarios, we have 
done planning for a number that is larger than what we think is 
likely, and we have done planning for smaller numbers. I am not 
prepared to offer a number that is my prediction as to what 
would be the exact number.
    Mr. Costello. Well, the figure that I have heard used is--
on the bottom figure is $1 billion.
    Mr. Grizzle. We have done internal planning involving cuts 
that were smaller than that, and cuts that would be larger than 
that.
    Mr. Costello. Would--is it reasonable for one to assume 
that if there is a $1 billion cut to the FAA, that it would 
impact safety? If the delay of implementing NextGen--if it is 
pushed off for several years, NextGen is, of course--one of the 
assets of NextGen will be to improve safety.
    Mr. Grizzle. It will be our challenge to effect a----
    Mr. Costello. In other words, you are not going to answer 
the question.
    Mr. Grizzle [continuing]. A cut of that magnitude safely.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    On that line of questioning from my good friend, if you 
were going to face $1 billion in cuts due to sequestration--and 
I hear your hesitancy about confirming that--I don't think it 
is an unfair question to assume that if we then were going to 
turn around and cut DOD by $350 billion, that that too might 
have a very similar cause regarding safety to our war fighters 
and to the protection of this great Nation. So I mean, if we 
are going to use that rationale, then I think we need to 
examine, you know, all of the possibilities of sequestration.
    First of all, thank you all for being here. That was just a 
statement. I wanted--I am curious about the--Mr. Scovel, you 
had mentioned that today you were not here prepared to advance 
the theory that contract towers are safer. However, you--let me 
ask you a couple of questions. You know, you--are you of the 
opinion that the--are the contract towers--do they have equal 
equipment, equal facilities?
    Because I have heard general comments by both of you that 
said that we have aging towers, and that--so is it safe, then, 
to say that the towers that--the contract towers are equivalent 
in quality and--in the quality and the excellence of the 
equipment? Is that fair?
    Mr. Scovel. Yes, generally. They are comparable. They are 
comparable, in terms of safety, as well. And my point with 
regard to the safety data was simply if you were to look at the 
data presented in our statement, you might conclude that 
contract towers are safer. I attached a caveat to that because, 
based on our prior experience, we know that operational 
errors--and thanks to FAA's good work on the runway incursion 
side, as well--we know that those come up with better training 
and reporting methods. So that is the caveat that I would issue 
there.
    I will also note, sir, that FAA is responsible, in most 
cases, for the equipment and maintenance of that equipment at 
contract towers.
    Mr. Southerland. As far as the towers--as far as the 
staffing of the towers, are they equivalently staffed? And I am 
talking about the contract towers to the FAA towers. I mean 
would they be--and I know the volume is different, obviously. 
But based on the volume, are they staffed properly, as compared 
to the FAA towers?
    Mr. Scovel. We believe they are. And we believe that FAA 
towers, given the structure in which they must operate and 
their staffing requirements, are properly staffed.
    However, for contract towers, they are free of some of the 
restrictions that apply to FAA towers. And contractors have 
taken advantage of that by preparing their staffing plans 
accordingly. And the FAA has approved them after appropriate 
review.
    Mr. Southerland. Define for me a restriction.
    Mr. Scovel. For instance, a restriction in an FAA tower is 
that, by virtue of the collective bargaining agreement, a 
controller may not spend longer than 2 hours on position, on 
scope, before he or she takes a break or moves to another 
place. In other words, gets off that place and maybe gets out 
of that rut. That is not a requirement in the contract tower 
world.
    Mr. Southerland. So in that requirement that they be--that 
2-hour requirement, they will be there for 2 hours and then 
they will leave and do whatever. So their focus might be 
interrupted because they have to leave in 2 hours.
    Mr. Scovel. Or, as some controllers would say, their focus 
can be renewed.
    Mr. Southerland. Right. But we all know that great running 
backs run better when they get the ball 25 times a game, as 
opposed to 5.
    Mr. Scovel. Right.
    Mr. Southerland. So there is a belief that you get in a 
zone that you are so good, you are so proficient, you are so 
excellent that you are left alone because of the restrictions 
of, in your words, collective bargaining. And A players do what 
they were created to do by God. They are excellent at what they 
do. So when they have the law of momentum providing safety, 
providing efficiencies, to yank them out of that, I could make 
an argument that those that I have employed do best when I 
leave them alone and don't micromanage them and restrict them 
as compared to maybe some of the contract towers, where those 
same restrictions do not apply. Is that a fair assessment?
    Mr. Scovel. Sir----
    Mr. Southerland. Based on self-evident truths?
    [Laughter.]
    Mr. Scovel. As an inspector general, I am sworn not to 
indulge in self-evident truths, sir.
    Mr. Southerland. Yes, yes.
    Mr. Scovel. I must have data.
    Mr. Southerland. I am amazed at how this place up here 
continues to disregard common sense.
    Mr. Scovel. I know.
    Mr. Southerland. As if we know better, or know more than 
our founding fathers.
    But--well, thank you very much. I know I am over my time. 
Thank you both, all three, for testifying here today. I yield 
back.
    Mr. Petri. Thank you. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman. I too would like to 
thank the panel for being here. Most of my questions have 
already been answered.
    But, Mr. Grizzle, does the FAA approve staffing plans for 
each contract tower?
    Mr. Grizzle. Yes, we do.
    Mr. LoBiondo. And do you think or believe that contract 
towers are understaffed?
    Mr. Grizzle. I do not believe they are understaffed.
    Mr. LoBiondo. OK. And are there plans to have contract 
tower controllers participate in the FAA's voluntary reporting 
program?
    Mr. Grizzle. Yes, there are.
    Mr. LoBiondo. When might that happen?
    Mr. Grizzle. Well, as we discussed earlier, we need to 
inject some deadlines into our contract structure with our 
contractors, which we have not done, but we will do.
    Mr. LoBiondo. OK. Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Long, did you have any questions, 
or--very good.
    Well, we would like to thank the panel for your testimony. 
And I note, Mr. Grizzle, you will be submitting some 
information----
    Mr. Grizzle. Yes.
    Mr. Petri [continuing]. In response to Mr. Costello's 
questions. And we will now turn to the second panel. Thank you 
very much.
    Mr. Scovel. Mr. Petri, if I may take simply 15 seconds. We 
have had a lot of talk earlier this morning, and some of it by 
me, concerning the ATSAP program. We are strong endorsers of 
ATSAP. However, I would be remiss if I did not note that we 
will be issuing a report, hopefully by the end of this week, 
addressing the merits of ATSAP and areas where we believe the 
agency has strong opportunities for significant improvement.
    ATSAP is not yet a silver bullet. It is a step in a long 
series of steps to get us to better safety. FAA should be 
commended for embarking on the trail. And hopefully, our 
recommendations, which the Congress and the agency will receive 
this week, will advance that effort. Thanks.
    Mr. Petri. Thank you for that update. And thank you all.
    The second panel is assembling. And I would like to ask our 
colleague, Mr. Lankford, to introduce the first person on the 
panel who will testify, Mr. Strong.
    Mr. Lankford. Yes. Pleased to do that, Mr. Chairman. Walter 
Strong is the chairman of the United States Contract Tower 
Association Policy Board. And so, obviously, he brings a 
tremendous amount of expertise as far as interaction with his 
colleagues about contract towers. He also is extremely 
important in contract towers in Oklahoma. The Norman airport, 
Max Westheimer Airport in Norman, Oklahoma, is a contract tower 
location, and is vital to both the University of Oklahoma, and 
to a lot of business in the southern part of Oklahoma City and 
in the southern part of Oklahoma, itself. So, honored that he 
is here, and has given his time to be able to be a part of 
this, as well.
    Mr. Petri. Thank you. And Mr. Strong will be joined by Ms. 
Trish Gilbert, who is the executive vice president of the 
National Air Traffic Controllers Association, Ms. Melissa 
Rudinger, the senior vice president of government affairs, 
Aircraft Owners and Pilots Association.
    And we thank you all for the effort that went into 
preparing your testimony. We invite you to summarize it in 
about 5 minutes. And we will follow that with questions, and 
begin with Mr. Strong.

   TESTIMONY OF WALTER B. STRONG, JR., A.A.E., CHAIR, POLICY 
BOARD, UNITED STATES CONTRACT TOWER ASSOCIATION, AN AFFILIATED 
ORGANIZATION OF THE AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES; 
   PATRICIA GILBERT, EXECUTIVE VICE PRESIDENT, NATIONAL AIR 
   TRAFFIC CONTROLLERS ASSOCIATION; AND MELISSA K. RUDINGER, 
 SENIOR VICE PRESIDENT OF GOVERNMENT AFFAIRS, AIRCRAFT OWNERS 
                     AND PILOTS ASSOCIATION

    Mr. Strong. Thank you, Mr. Chairman and Mr. Costello, and 
members of the subcommittee. Thank you for inviting me to 
discuss FAA's Contract Tower Program. I would also like to 
thank Mr. Lankford for that kind introduction.
    Our partnership with the FAA program on this program is 
exemplified by our mission statement, the government-industry 
partnership dedicated to air traffic safety. And in today's 
challenging economic environment, I might also add the 
partnership dedicated to jobs and economic growth.
    Before we offer our thoughts on the many benefits of the 
program, I would like to raise a flag of caution about one 
current issue, that issue being the airport community's concern 
about potential changes to FAA's cost-benefit analysis, which 
determines participation in the program.
    While we are encouraged by FAA's stated desire to work with 
the industry in a collaborative, balanced, and transparent 
manner, we hope FAA stays on that path to avoid changes to the 
program that would jeopardize air traffic safety, economic 
growth, and jobs. FAA should ensure that the process full 
accounts for the broad array of significant benefits that the 
program provides to individual communities, to the Nation as a 
whole.
    This program should not simply be about black and white 
numbers. It must be about the best interests of advancing 
aviation safety. Additionally, these potential changes could 
result in FAA shifting costs to local communities that have 
little, if any, ability to absorb additional costs in these 
challenging economic times. The end result could be the closure 
of many contract towers, nationwide.
    As do most airports in the program, Westheimer Airport in 
Norman, we support our tower operations with local funds for 
utility cost, equipment costs, both installation, maintenance, 
and repair. So even though the FAA pays for the cost to staff 
the tower, we provide significant local funding in partnership 
with the FAA to provide first-class air traffic services to our 
aviation community.
    Mr. Chairman, FAA's Contract Power Program has a proven 
successful track record. Benefits include enhanced safety, 
improved air traffic services, significant cost savings to FAA 
and taxpayers, economic growth and job creation. The DOT 
inspector general has repeatedly validated those facts, and the 
program enjoys strong bipartisan support in Congress.
    All contract controllers are FAA-certified and meet the 
same training standards as FAA controllers. Additionally, FAA 
controls and oversees all aspects of the program, including 
operating procedures and staffing plans.
    I recently read the National Transportation Safety Board 
had added general aviation safety to its most wanted list of 
transportation safety improvements. In a national air 
transportation system that needs to stay vigilant to reduce 
accident rates, we believe that the safety benefits provided by 
the program are not optional, but mandatory.
    Let me be clear. Without this program, hundreds of 
communities across our Nation would not receive the critical 
safety benefits that these controllers provide.
    To illustrate cost-effectiveness of the program to 
taxpayers, FAA contract towers in fiscal year 2011, handled 
approximately 28 percent of all tower operations, but accounted 
for just 14 percent of FAA's overall tower budget. Now, that is 
a good deal for taxpayers. Also, of the 250 towers in the 
program, 136 were previously FAA-staffed low-activity towers 
that were converted to the contract operations in the 1990s. 
Based on anticipated cost information from the DOT IG, if FAA 
were still staffing those 136 towers, the additional annual 
cost to taxpayers would be approximately $200 million, which is 
$50 million more than the current budget to operate all 250 
towers.
    Also, many contract towers are represented by the National 
Air Traffic Controllers Association. The U.S. Contract Tower 
Association continues to have an open dialogue with NATCA, and 
cooperates on ways to work together effectively as part of a 
unified national air traffic control system. There is a clear 
role for both FAA and contract towers.
    In closing, airports deserve the safety and economic 
development benefits the FAA contract towers provide. We are 
encouraged by the highly effective partnership that airports, 
contract controllers, ATC contractors, and FAA have developed, 
and we urge Congress to continue its support of this critical 
program.
    Thank you very much for your time, and I would be happy to 
answer any questions at this time.
    Mr. Petri. Well, thank you. Ms. Gilbert.
    Ms. Gilbert. Chairman Petri, Ranking Member Costello, 
members of the subcommittee, thank you very much for allowing 
me to testify today. NATCA is in a very unique position to 
offer an objective assessment of the Federal Contract Tower 
Program, and to evaluate the difference between FAA and 
contract towers, because we represent controllers that work in 
both.
    NATCA proudly represents air traffic controllers at 63 
contract towers, as well as controllers in the FAA and in some 
DOD facilities. As a controller myself, I can tell you that our 
priority is simple. And, regardless of employer, and regardless 
of the challenges we face, our job every day is to ensure the 
safety of the flying public, and continue to operate the 
world's best air traffic control system.
    With that, NATCA does support the cost share component of 
the Federal Contract Tower Program. We believe it enables local 
communities that couldn't otherwise support a tower to reap the 
economic benefits aviation brings to them. NATCA also supports 
building new towers where ones do not currently exist. But we 
are opposed to the transfer or conversion of FAA towers into 
the Federal Contract Tower Program.
    First and foremost, it is NATCA's position that there is a 
fundamental flaw in comparing contract towers to FAA towers, in 
terms of safety, as defined by the number of incidents 
reported. The flaw derives from the fact that safety incidents, 
which include operational errors, deviations, and runway 
incursions, are unevenly reported. The GAO noted in 2003 that 
``comparisons of operational error rates alone are not 
sufficient to draw conclusions about the relative safety 
records of air traffic control facilities.'' NATCA believes 
that a comparison of this type does the program a disservice, 
because safety at contract towers and FAA towers cannot be 
accurately compared through safety incident data at this time. 
That data is incomplete, and the baseline is different.
    Additionally, the FAA has moved to a true safety culture, 
where all controllers and employees are encouraged to report 
every safety issue, including errors. Contract towers are often 
driven by a punitive culture that discourages this reporting.
    As far as comparing costs, the FAA model was built on the 
premise of necessary redundancy to prioritize safety above all, 
whereas contract towers have incentive to prioritize to the 
bottom line. NATCA is not criticizing the fact that profit 
margins matter and are a factor. But our review of contract 
towers finds them to be understaffed with less support of their 
facilities and equipment, and also insufficient training for 
their controllers. These factors contribute to the contract 
tower's bottom line when it comes to cost.
    Staffing amounts to the bulk of the operating cost in these 
facilities. This motivates contractors to reduce staff in order 
to lower costs when competing for a contract. That said, the 
contract towers can lack necessary redundancy, especially when 
it comes to staffing. The FAA requires two controllers on 
shift, while contract towers are not bound by that, and 
frequently staff with only one controller for extended links of 
time.
    In terms of equipment, some towers still use radios that 
are so old they cannot accommodate a headset, and controllers 
must use the hand-held devices to communicate. This can be 
problematic in a profession where clear two-way communication 
is key to safety. Additionally, due to cost sharing arrangement 
between the tower, the sponsor, and the FAA, all three entities 
often disagree on who is responsible for the cost to maintain 
and/or repair facilities and equipment.
    The temporary tower at Opa-locka, Florida, in southern 
Florida, is a prime example of the funding battle that results 
in unsafe working situations for controllers. Six years ago the 
old tower failed county fire suppression requirements and was 
deemed unsafe to occupy. When both the FAA and the county 
refused to correct the problem, the FAA provided a temporary 
tower located on a closed runway in an old RV on top of eight 
large shipping containers. It still remains in that facility, 6 
years later. Such a facility would not have been tolerated, had 
it been staffed by FAA personnel. It is only due to the 
exceptional dedication and skill of the controllers at Opa-
locka that the facility has been able to provide the services 
that they do.
    Finally, NATCA believes that the 30-day training period 
that contract towers provide is insufficient, regardless of the 
controllers' experience. FAA towers are trained under a much 
more specialized training program that includes training teams, 
on-the-job training, classroom instruction, and simulations.
    NATCA made five recommendations in our written testimony. 
We believe that implementing these recommendations will shift 
contract towers toward a true safety-based model. We recognize 
that implementation of these recommendations would come at a 
financial cost. But we believe the benefits far outweigh the 
cost savings contract towers currently have, when you compare 
them to the cost of FAA towers.
    Thank you for allowing me to be here today, and I will take 
any questions when appropriate. Thank you.
    Mr. Petri. Thank you. Ms. Rudinger.
    Ms. Rudinger. Chairman Petri, Ranking Member Costello, and 
members of the committee, good morning. My name is Melissa 
Rudinger, and I am with the Aircraft Owners and Pilots 
Association. I appreciate the opportunity to be here today to 
testify and give the user's perspective and the aircraft 
owner's perspective on contract control towers.
    The Contract Control Tower Program has provided cost-
effective and essential air traffic services to general 
aviation airports since 1982. Of the 250 contract towers in the 
program, 89 serve general aviation airports exclusively. Your 
continued support of this critical program is important to 
aviation safety, economic development, and efficiency at 
airports and communities in this great Nation.
    My testimony today addresses three overarching points: 
first, contract towers enhance safety; second, contract towers 
are cost-effective; and third, contract towers help local 
economies.
    The Contract Power Program greatly enhances safety by 
providing vital air traffic service to communities that would 
not otherwise qualify for a federally funded tower. They 
enhance the safety of flight for all aircraft operating at an 
airport and in the surrounding airspace. For example, at a 
towered airport, all aircraft are required to establish and 
maintain two-way radio communication with the tower, unlike 
nontowered airports.
    Controllers also bring situational awareness and ensure the 
safe, efficient, and orderly flow of traffic. Additionally, 
airspace around airports with towers have higher weather 
minimums, which greatly increases the safety margin for all 
operators.
    As others have testified here, contract towers have 
consistently achieved good scores in every metric that you can 
measure a contract tower on. They are critical to the safety of 
local communities, such as Brown Field in San Diego, Palm Coast 
in Ormond Beach in Florida, and of course, Wittman Field in 
Oshkosh. All serve a very important role in enhancing safety at 
airports with robust general aviation activity.
    Other contract towers, like Martin State, here in our local 
area, provide a significant safety enhancement for a broad mix 
of operations. This includes intensive flight training and 
support of the 175th Wing of the Maryland Air National Guard.
    As far as costs are concerned, the FAA Contract Tower 
Program is one of the most cost-effective government-industry 
partnerships in the history of the agency. Virtually every 
performance metric of the program has a proven track record of 
sustained cost savings, efficiency gains, and economic value to 
local communities.
    In 2011, the 246 towers then in the program handled 28 
percent of all tower operations, but only accounted for about 
14 percent of the FAA's tower budget. In contrast, the 264 FAA-
staffed towers that handled the remaining 72 percent of 
operations used 86 percent of the FAA's tower budget. Looking 
at it another way, the cost of operating a contract tower is 
roughly one-third the cost of operating an FAA-staffed tower. 
These numbers clearly highlight that the Contract Tower Program 
is of great value to the American taxpayer.
    Numerous studies have also shown that airports are economic 
engines for communities. And we also know that the 
establishment of an air traffic control tower drives even 
greater economic development through the creation of jobs, the 
growth of airport businesses, and other benefits. This was 
validated in a 2011 study by an independent contractor for the 
Commonwealth of Virginia.
    This study showed that each dollar spent by an aviation 
business or an aviation-related business generated $1.52 in 
economic activity. It also showed that airport jobs are 
desirable, and the average wage of a job at a Virginia airport 
was 40 percent higher than the average Virginia salary. For 
every job at a Virginia airport, nearly three are created in 
its visitor-related economy. And aviation-related businesses 
and employees annually contribute $105 million to the local tax 
base.
    The study also indicated that construction projects like 
airport control towers are beneficial because dollars spent by 
the State and local governments are leveraged with Federal and 
private funds. This multiplier effect results in generating an 
additional $2 in economic activity for each dollar spent.
    In conclusion, I would like to say that the FAA's Contract 
Power Program has a proven track record of providing cost-
effective and essential air traffic safety services to general 
aviation airports, and they provide strong support to local 
economies.
    On behalf of the members of AOPA, I thank you for your 
leadership in examining this important program. This concludes 
my testimony.
    Mr. Petri. Thank you. Thank you. Thank you all. I do have a 
few questions.
    Mr. Strong, as the previous panel indicated, the FAA is in 
the process of revising the cost-benefit analysis for contract 
towers. And from what you know of their plans, do you believe 
they are considering the right cost and benefit factors? And if 
not, what would be more adequate or appropriate, in your 
opinion?
    Mr. Strong. Mr. Chairman, thank you for the question. We 
have been in consultation with the FAA. As Ms. Oettinger spoke 
earlier, we were in their offices just 3 or 4 weeks ago.
    Some of the items that they intend to include in the cost-
benefit analysis we believe are appropriate. Probably our 
biggest concern is that the world has changed from what we once 
knew it to be in the world of contract towers, and there are a 
lot of activities that may not be picked up in their current 
process. And we want to make sure that all of the benefits, all 
of the things, all of the items that go on at the airports are 
actually included.
    At Westheimer in Norman, we have a really broad program of 
what goes on there. The University of Oklahoma has a 
significant flight training program, where we train pilots that 
will come into the system and be your pilots on airplanes and 
commercial service in future years. Those folks generate 200 to 
250 flights a week during the semesters. We also have the 
Governor that flies in and out of our airport. We have a 
tremendous amount of law enforcement activity at our airport. 
And we also have the business community that comes and goes.
    And, on top of that, when we play football in the fall, on 
game days there is a tremendous influx of business jet and 
single engine aircraft activity that comes to the airport.
    So we are not certain that the FAA really includes those 
complexities and all of those things that are included in their 
cost-benefit analysis. And that is what we really want to work 
with them on, and make sure that they are including those 
things. Because we don't want to put any contract tower 
community in a position to even consider reducing services or 
closing a tower because they can't afford the shifted costs in 
their direction.
    Mr. Petri. The--I am sure you are aware--and I don't know 
if this question is directed for you, or if others would care 
to respond. But we live in a world--and certainly it is true in 
aviation--of rapidly changing technology. And I talk often with 
general aviation pilots, and they show me their things where--
we all have Garmins in our car and the satellite--the amount of 
data you can get as an automobile driver, let alone as an 
airplane pilot.
    And so, the world of air traffic control is--if it is not 
already--is rapidly about to change, and has for some of 
general aviation already. People have routes, they have 
information in the cockpit that enable them to dial in an 
airport and to get there.
    As that world evolves, could you discuss how--the contract 
towers and general FAA towers, the flight movements aren't 
constant throughout the day, there--possibility of transferring 
to TRACON or to regional--and a lot--and they can control 
flights into airports, there are programs to put sensors of--
ground equipment on airports so it will show in the cockpit for 
the pilot if anything is approaching. There are a lot of things 
that can be done now that minimize the need for expensive air 
traffic control for airports that--a lot of airports don't have 
any towers, anyway.
    And could you discuss how the impact of this technology is 
on both the general FAA and the contract tower situation?
    Mr. Strong. Yes, sir, Mr. Chairman. I might characterize it 
in the following fashion. I am reminded of a day when I was at 
the Oshkosh event years ago, back in the 1990s, and I was 
talking to some FAA folks there. And there was a table in the 
tent that had NDB and ILS. And over on the end there was one 
young fellow that was talking about GPS. And I thought, ``I 
want to talk to him, because that is new technology, and it is 
coming at us.''
    And around the year 2000 I asked FAA--we needed an ILS for 
Westheimer Airport in Norman. And we were told, ``You can't 
have an ILS.'' ``Well, why can't I have an ILS?'' ``Because you 
are not on the list.'' ``Well, why aren't we on the list?'' 
``Because we are going to have full implementation of GPS by 
the year 2000.'' That was the answer that I got. I would submit 
to you that we are in the year 2012. And not to be overly 
critical with the FAA, but you are talking about new 
technologies that often take a tremendous amount of time to 
bring on board.
    So we did get our ILS. We still don't have full 
implementation of GPS. We do use a lot of security cameras at 
our airport. If you are referring to NextGen and coming online, 
I have heard talk about virtual contract towers, or virtual 
towers, where you might have a controller in a room looking at 
video screens that are, you know, feeding camera data from an 
airport to a video screen, so they can control traffic at more 
than one tower. I would submit to you that cameras--I don't 
think, personally, cameras are at that level of confident data. 
I just don't think it is there.
    At night time, the data that you get from a camera is 
reduced. You won't see a 12-point buck crossing the runway at 
night with a camera, where a controller with eyeglasses may see 
that. So while I believe new technology coming at us will make 
a benefit in the future, I think we are still a long distance 
off from that. And for the time being, I think we still need to 
work with the efficiencies that we have in the Contract Tower 
Program, and even the FAA tower program. I don't think it is 
time yet to shift to air traffic management from air traffic 
control.
    That is personal opinion. I was a controller for 17 years. 
I have worked towers and radars and enroute traffic, so I am 
familiar with the process. And I just don't think we are ready 
for air traffic management quite yet.
    Mr. Petri. Mr. Costello?
    Mr. Costello. Mr. Chairman, thank you. Mr. Strong, one of 
the issues that I have heard with some of the contract towers--
in fact, one in my district--is that the FAA could do a better 
job of upgrading and maintaining their facilities and 
equipment. I wonder if you might comment on that. And I would 
ask the same question of Ms. Gilbert.
    Mr. Strong. Thank you, Mr. Costello. I think we could all 
do a better job of upgrading our equipment. I know we have--for 
example, one of the comments earlier was old radios that are 
not used--you cannot use a headset with a radio. I will admit 
to you that we have a light gun in our control tower that is 
probably 30 years old. But it is functional. So do I need to go 
out and spend $15,000 or $20,000 to buy a new light gun, just 
so I can have a new light gun? I don't think so.
    There are times when we do need to be more effective and 
more efficient in adding new equipment. And the FAA, frankly, 
has put some new equipment in our control tower, because we are 
in the greater metropolitan area of Oklahoma City, and we have 
a reasonable amount of traffic. So they installed a radar 
system in our contract tower that quite a few contract towers 
don't have. So we do have some of those upgrades. But I 
wouldn't throw out an old radio just because it is old. If it 
still functions, you can still talk to the pilots, you still 
get the job done. Does it need to have new bells and whistles? 
Might be a little bit better, maybe a little more efficient. Is 
it necessary? Maybe not.
    Mr. Costello. Ms. Gilbert?
    Ms. Gilbert. I would agree that new doesn't necessarily 
mean better. Our concern would be where the equipment isn't 
functioning in a way that allows you to do the job, the very 
serious job, that air traffic controllers do in both Federal 
and contract towers. They are often distracted by maintaining 
equipment. Controllers are having to do it themselves, because 
there are not onsite technicians in the facilities. Then that 
distracts them from doing the job that they are there to do, 
which is the movement of air traffic in and out of the airport.
    As you well know, several years ago we didn't have the 
relationship with the FAA that we do now. So we had a lot of 
involvement with many Members of Congress on behalf of the 
contract towers that we represent, to get them appropriate and 
proper equipment in the facilities. In Georgetown, just on the 
outskirts of Austin, Texas, we were able to get a DBRITE in 
that facility to help them move planes in and out of that 
airport, with the help of Congressman John Carter.
    Now, however, we have a relationship with the FAA that 
allows us to better communicate the needs of those facilities, 
as well as the FAA facilities, with regard to not necessarily 
new equipment, but certainly equipment that will enhance safety 
and equipment that will improve efficiencies. We support that 
in both facilities.
    I would like to also give you one more perspective with 
regard to the voluntary reporting system that we have in the 
FAA that we would like to see in the contract towers. With that 
in place, and the collection of a lot of data, you are able to 
better prioritize equipment issues that need to be put in place 
to enhance safety, versus what might just be nice to have. When 
you get that good, solid data, it enables us in tight budget 
times to prioritize appropriately what should be deployed and 
where. So that is another benefit of the voluntary reporting 
system, that we see it.
    Mr. Costello. You just answered my second question about 
nonpunitive reporting, voluntary reporting at contract towers.
    The final question, Ms. Gilbert, is you mention in your 
written testimony that the FAA and contract towers have 
different ``safety cultures.'' What do you mean by that?
    Ms. Gilbert. Well, in the FAA, as you well know, we 
voluntarily submit data to the agency so we can better assess 
where the risks are, how to mitigate them, how to prioritize 
them, and fund them appropriately to address the concerns. 
Rather than a punitive culture, where the blame would go on an 
individual, and there would be no real effort to correct what 
might be a true safety concern or issue.
    We do not have that in the contract towers, and we are 
hoping that we are able to get that very soon. We do represent 
controllers under all three employers, and we are at different 
levels of discussions with them. However, I believe at this 
point in time their idea of a voluntary, nonpunitive reporting 
system and ours is very, very different. So we have a little 
ways to go there.
    Mr. Costello. Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Lankford?
    Mr. Lankford. Thank you. Thank you, Mr. Chairman. Mr. 
Strong, do you think it is--there is a greater risk, landing 
and taking off at a contract tower?
    Mr. Strong. No.
    Mr. Lankford. What about in a--is there a difference in 
safety between a contract tower and an airport with no tower?
    Mr. Strong. No.
    Mr. Lankford. OK.
    Mr. Strong. And I pause because you have different humans 
working in different towers. And, to me, that is not whether it 
is a contract tower or if it is an FAA tower. That is a human 
issue.
    Mr. Lankford. Right.
    Mr. Strong. If the human is capable, and the human is on 
their game, if the human is Barry Sanders, as Mr. Southerland 
spoke to earlier, of the air traffic control world, then the 
human will be on their game and there won't be any difference. 
And we--typically, we don't see any.
    Mr. Lankford. OK.
    Ms. Gilbert. Could I answer that, please?
    Mr. Lankford. Sure.
    Ms. Gilbert. I was a controller at Houston Center for 21 
years. And in my airspace, Hattiesburg, Mississippi, there are 
three airports in close proximity in that community. And there 
are no towers there. We provided the service out of the enroute 
facility. And it was a completely safe operation. However, for 
us to do that and not have a tower onsite, we were only able to 
provide one in, one out type of service.
    Mr. Lankford. Right.
    Ms. Gilbert. So you are not able to efficiently move 
aircraft in and out of the facility.
    Mr. Lankford. But you are typically talking about a lower 
rate of in and out, as well. You are not talking about someone 
doing takeoffs and landings every 3 minutes in a no-tower 
airport.
    Ms. Gilbert. No, only one is in. As soon as they taxi and 
they call you and they tell you they are off the runway, then 
you are able to then put another one in. In the meantime, those 
waiting to get in are holding.
    Mr. Lankford. OK. And, as Mr. Strong said, you can't see a 
12-point buck at that point.
    Ms. Gilbert. Exactly.
    Mr. Lankford. So which--I would assume there would be 
multiple responses to a 12-point buck in most Oklahoma towers, 
if you looked at the window and saw that.
    Let me--ask a couple other questions on this, as well. How 
does--for Mr. Strong, there is a discussion about the cost 
sharing for the local municipality or the State or--how does 
that get covered? Now it is up to 20 percent. There are some 
recommendations up there to be up to 50 percent of the cost 
being a local cost. How does that get covered? What effect does 
that have?
    Mr. Strong. My concern, Mr. Lankford, is that it doesn't 
get covered. If we get to a place where the FAA asks a 
community to--``Your cost-benefit analysis has dropped to this 
place where we now want you to pony up to 50 percent of the 
cost to staff the tower on an annual basis,'' the community may 
already be looking at we have got to deal with DEQ regulations, 
we have got to take care of stormwater, we need more 
firefighters, we need more police, we have already got--we are 
already strapped with all of these things, and now the FAA 
comes to us and says, ``In order for you to remain fully 
functional, you are going to have to step up to $175, $200,000 
a year to staff the control tower.''
    It seems to me that we then put those community leaders--in 
our case, the University of Oklahoma--into a position of 
considering where do we get the money, if we don't have the 
money now, where are we going to find it, and then they begin 
to consider maybe a reduction in services, or even closing the 
control tower. That is my concern.
    Mr. Lankford. Right.
    Mr. Strong. We have come to a place where the control 
towers are in place, they are part of the NAS. Everybody that 
has testified so far today has all agreed that it is about 
safety, safety, safety.
    Mr. Lankford. Right.
    Mr. Strong. And any kind of reduction or putting a 
community in a position where they say, ``Well, we are going to 
have to shut this thing down,'' is simply----
    Mr. Lankford. Is there a possibility to give you more 
flexibility that reduces cost in other areas, to say--you 
brought up multiple different regulations, stormwater and all 
the different regulations that also come down from the Federal 
Government into a community or onto an airport itself. Are 
there ways to be able to say, ``We will give you flexibility in 
these areas to take care of this, but you also have an 
increased cost, straight off''?
    Mr. Strong. I suppose that there might be, sir. I wouldn't 
know the answer to that, because it doesn't have wings, jet 
engines, or propellers on it. If it had one of those things, I 
might be a little bit better to answer it. But I suppose so. I 
don't really know the answer.
    Mr. Lankford. OK. Ms. Gilbert, you also mentioned that you 
were opposed to transitioning, or the organization was opposed 
to transitioning more airports from FAA to contract. In the 
mid-1990s was your organization also opposed to transitioning 
the 136 that are currently contract that used to be FAA? Was 
the organization opposed to that transition, as well?
    And if so--let me just get a chance to talk this through--
do you think it was a mistake that they were moved from FAA to 
contract towers, based on the current position the organization 
now, that we shouldn't have any more contract towers moved from 
FAA to that?
    Ms. Gilbert. We were opposed to the transfer and conversion 
of those towers. Just as our testimony says, our written 
testimony and the recommendations----
    Mr. Lankford. Right.
    Ms. Gilbert [continuing]. Our concern is about proper 
training, proper staffing, and proper equipment maintenance, 
regardless of whether it is a contract tower or an FAA tower.
    Mr. Lankford. Right.
    Ms. Gilbert. So that is our position.
    Mr. Lankford. Was it a mistake to move those? Has it proved 
to be unsafe?
    Ms. Gilbert. It hasn't proved to be unsafe, but we have a 
concern about the margin of safety being stretched to 
accommodate the bottom line, versus safety first. Somebody has 
got to make money in a Contract Power Program, and that is our 
concern. And the way that they are able to do that is barebones 
staffing, the equipment issues that we have raised, and also, 
in a lot of cases, the hours of operations. A lot of those 
facilities reduced the hours that they provide service to their 
community when they transferred from FAA to contract tower.
    Mr. Lankford. OK. Thank you. My time has expired. I yield 
back.
    Mr. Petri. Thank you. And--yes, sir?
    Mr. Strong. Mr. Chairman, if I might, there is a couple of 
things that I would like to speak to: the proper training, 
staffing, and equipping of the control towers. I have been a 
part of the U.S. Contract Tower Association Policy Board for 
about 10 years. And in that time, I have been the chair for 
about 6. I have met with the contractors on a frequent 
recurring basis. And each and every one of them, when we come 
to our meetings, it is always about safety first. How can we do 
this the best way we can possibly do it?
    Training, they always step up to the highest levels of 
training, be it recurring training or initial training. There 
was talk about the difference between certified controller and 
the training only being 30 days, and then you might get fired 
if you didn't make your--get your rating in 30 days. 
Controllers in the contract world come to the tower already 
certified by the FAA. They have a control tower operator 
certificate. So all they have to do is come to that tower, 
learn the particulars of the airspace at that airport, and then 
move forward.
    So, if there is something different about that facility 
that may require them to need a couple of extra days, I think 
the contractors would allow for that.
    There was comment about the punitive safety culture. That 
causes me great concern. Again, I have worked with these 
contractors for 10 years. I know what their heart is, I know 
what they are driven by, I know what their attention is. And 
they are not about punitive. Now, in the contract tower world, 
we do not yet have ATSAP. But the contractors are embracing 
that activity or that possibility. They want to move that 
forward.
    I would submit to you also, in the voluntary reporting of 
ATSAP, much like the NAS's callback--pilots are familiar with 
that--NAS's callback, if you make an error, you report it to 
callback, then you are not to be punished. And it seems to me 
that ATSAP is about the same thing for controllers. Even in 
NAS's callback, even though it is a very good program, you will 
never get 100 percent reporting. You are talking about humans. 
If--some people, if they make an error, and they don't think 
anybody saw it, they may not report it, whether it is a 
contract tower or an FAA tower. Unless we have some other 
nonhuman methodology of tracking the error, I don't think you 
will ever get 100 percent.
    But I would say this. I know the hearts and the minds and 
the intentions of these contractors. And they are dead set on 
having ATSAP or some functioning reporting system like that, as 
FAA does. And currently, I might add, they are serious about--
the only time that you will get punished is for not reporting 
an error. If you have an error or a deviation in the system, if 
you don't report it, then you have got a problem. If you do 
report it, we want to know about it, because we want to know 
what caused it, and how could we move forward, how can we learn 
from that and move forward in a safer condition.
    Mr. Petri. Thank you. Thank you all for your testimony. 
This hearing is adjourned.
    [Whereupon, at 11:46 a.m., the subcommittee was adjourned.]

</pre></body></html>
